           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
       PROGRESS IN IMPLEMENTING
          HOMELAND SECURITY
       PRESIDENTIAL DIRECTIVE 12



    July 2007          A-14-07-27110




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   July 26, 2007                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: TheSocial Security Administration’s Progress in Implementing Homeland Security
        Presidential Directive 12 (A-14-07-27110)


        OBJECTIVE
        Our objective was to determine the Social Security Administration’s (SSA) progress in
        implementing Homeland Security Presidential Directive (HSPD) 12 as of
        October 27, 2006.

        BACKGROUND
        On August 27, 2004, the President of the United States signed HSPD-12, Policy for a
        Common Identification Standard for Federal Employees and Contractors. HSPD-12
        directed the promulgation of a Federal standard for a secure and reliable form of
        identification for Federal employees and contractors.

        To assist in the implementation of HSPD-12, the National Institute of Standards and
        Technology (NIST) issued Federal Information Processing Standard (FIPS) Publication
        (PUB) 201. 1 FIPS PUB 201-1, Personal Identity Verification (PIV) of Federal
        Employees and Contractors, provides guidance that executive departments and
        agencies are to use to implement HSPD-12. FIPS PUB 201-1 (the “Standard”) is to be
        implemented in two parts. Part-I addresses control and security objectives and Part-II
        addresses the technical components and processes that support a common smart card-
        based platform.




        1
         FIPS PUB 201, PIV of Federal Employees and Contractors, was amended in March and June of 2006.
        After the March 2006 amendment, the publication reference number became 201-1.
Page 2 – The Commissioner


The Office of Management and Budget (OMB) issued Memorandum M-05-24 on
August 5, 2005. 2 M-05-24 provides implementing instructions and timelines for
additional actions that Federal departments and agencies need to complete for
HSPD-12 by certain specified dates. For example, the Memorandum indicates that all
covered Federal Departments and agencies must:

      •   adopt and accredit a registration process consistent with FIPS PUB 201 identity
          proofing, registration and accreditation requirements for new Agency employees,
          contractors and other applicable individuals by October 27, 2005; 3

      •   begin deploying products and operational systems by October 27, 2006, to issue
          and require the use of identity credentials for all new employees and contractors,
          compliant with Part 1 and Part 2 of the Standard. For current employees and
          contractor personnel, phase in issuance and use of identity credentials meeting
          the Standard no later than October 27, 2007; 4

      •   plan for and begin background investigations for all current employees with
          15 years or less Federal service and current contractor personnel who do not
          have an initiated or successfully adjudicated investigation on record. Verification
          and/or completion of background investigations for all current employees are
          required by October 27, 2007, as is the phase-in of a plan and initiation of
          investigations for all current contractors; 5 and

      •   complete new background investigations, commensurate with risk, for all
          Department or agency employees with over 15 years Federal service no later
          than October 27, 2008. 6

FIPS PUB 201-1 indicates that all departments and Agencies shall implement the
Personal Identity Verification (PIV) system in accordance with the spirit and letter of all
privacy controls specified in that standard as well as those specified in Federal privacy




2
  OMB Memorandum M-05-024, Implementation of Homeland Security Presidential Directive 12 - Policy
for a Common Identification Standard for Federal Employees and Contractors.
3
    OMB, Memorandum M-05-24, Attachment A § 3.A., p. 5.
4
    OMB, supra, § 4, p. 6.

5
    OMB, supra, § 3.D and 3.E., p. 6.

6
    OMB, supra, § 3.D, p. 6.
Page 3 – The Commissioner


laws and policies, including but not limited to the E-Government Act of 2002 7 (E-Gov),
the Privacy Act of 1974, 8 and OMB Memorandum M-03-22, 9 as applicable. 10

RESULTS OF AUDIT

SSA had implemented a number of important OMB and FIPS PUB 201-1 requirements
for HSPD-12 as of October 27, 2006. For example, SSA:

       •   Created and used an HSPD-12 identity proofing, registration and issuance
           process for new Agency employees hired at its Headquarters (HQ) complex.
       •   Issued 13 PIV II credentials before the OMB mandated target date.
       •   Formulated and executed a plan to help ensure that SSA employees have an
           appropriate background investigation either initiated or on file.
       •   Filed the required notices and took appropriate actions needed to address
           HSPD-12 privacy and security requirements involving the protection of
           Personally Identifiable Information in the development of a new system of
           records.

However, SSA needs to address the following areas:

      •    SSA’s HSPD-12 identity proofing, registration, and issuance process was not
           implemented nationwide.
      •    SSA contractor personnel hired during the period of October 27, 2005 through
           October 27, 2006 were not processed using the SSA HSPD-12 identity proofing
           and registration protocol.
      •    The General Services Administration (GSA) found that SSA credentials were not
           fully compliant with technical requirements.
      •    The infrastructure needed to support the use of the credentials issued was not in
           place due to GSA delays.




7
    44 U.S.C. ch. 36.
8
    5 U.S.C. § 552a.
9
 OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002,
September 26, 2003.
10
   U.S. Department of Commerce, Federal Information Processing Standard (FIPS) 201-1, Section 2.4,
p. 7, March 2006.
Page 4 – The Commissioner


THE SSA PERSONAL IDENTITY PROOFING, REGISTRATION, AND ISSUANCE
PROCESS WAS NOT IMPLEMENTED NATIONWIDE

The personal identity proofing, registration and issuance process adopted by SSA was
not implemented nationwide. Therefore, new SSA employees hired outside of the HQ
complex were not processed in accordance with SSA’s HSPD-12 personal identity
proofing and registration protocol. As a result, SSA may not have achieved HSPD-12
objectives to enhance security and increase Government efficiency with respect to
employees hired outside the HQ complex during the review period of October 27, 2005
to October 26, 2006. FIPS PUB 201-1 11 requires the adoption and use of an HSPD-12
identity proofing and registration process that satisfies Part 1 PIV I control and security
objectives (for details see report Appendix B-2, Section titled Control Objectives for
HSPD-12).

According to Agency management, the scarcity of resources and tight time constraints
limited implementation of a compliant HSPD-12 standard personal identity verification
system. SSA needs to expand this process nationwide for all new employees.

NEW CONTRACTOR PERSONNEL WERE NOT PROCESSED USING THE SSA
HSPD-12 IDENTITY PROOFING AND REGISTRATION PROTOCOL

New contractor personnel hired during the review period of October 27, 2005 to
October 26, 2006 were not processed in accordance with the required SSA HSPD-12
identity proofing and registration protocol. As a result, SSA may not have achieved
HSPD-12 objectives to enhance security and increase Government efficiency with
respect to new contractor personnel hired. FIPS PUB 201-1 12 requires the adoption
and use of an HSPD-12 identity proofing and registration process that satisfy Part 1 PIV
I control objectives (for details see Appendix B-2, Section titled Control Objectives for
HSPD-12).

According to SSA management, formal guidance was not initially available in the review
period that would have enabled the Agency to develop a process that would meet
HSPD-12 contractor personnel processing requirements. GSA, in November 2006,
issued a new Federal Acquisition Regulations Clause 13 that addressed HSPD-12
compliance. SSA needs to modify future contract language where appropriate and use
HSPD-12 identity proofing and registration protocol to process new SSA contractor
personnel.



11
  FIPS 201-1, supra, Section 2.2 requires the adoption and use of an approved HSPD-12 identity
proofing and registration process, to satisfy PIV I control objectives (for details see report Appendix B-2
Section titled Control Objectives for HSDP-12).
12
     Id.
13
  Federal Acquisition Regulations subpart 52.2 Text of Provisions and Clauses, 52.204-9 Personal
Identity Verification of Contractor Personnel, (November 2006).
Page 5 – The Commissioner


PIV II CREDENTIALS ISSUED WERE NOT CERTIFIED AND INFRASTRUCTURE
WAS NOT IN PLACE

SSA issued thirteen PIV II credentials prior to the mandated target date for beginning to
deploy such products. However, those credentials were not certified by GSA as
meeting FIPS PUB 201-1 credential technical requirements. 14 Additionally, the
infrastructure necessary to support the use of the issued credentials was not in place.
Therefore, while SSA demonstrated the ability to issue a PIV credential, the credential
issued did not fully meet HSPD-12 credential technical requirements. OMB
Memorandum M-05-24 requires implementation of Part 2 of the Standard by mandating
that by October 27, 2006, all Federal departments and agencies begin deploying
products and operational systems meeting certain requirements, including issuing and
requiring the use of identity credentials for all new employees and contactors, compliant
with Parts 1 and Part 2 of the Standard. 15 Further, OMB Memorandum M-07-06
requires that all agencies must provide to GSA, by January 19, 2007, a credential with
their agency’s standard configuration for testing to ensure that the agency credential
meets FIPS 201-1 requirements. 16

SSA submitted its HSPD-12 credential to GSA in November 2006 for compliance
testing. The results of the November 2006 test were mixed. The SSA credential
passed some tests and failed others. SSA management stated that it will resubmit the
credential for additional compliance testing when the areas where the credential failed
have been addressed.

SSA management also stated that the completion of the SSA HSPD-12 infrastructure is
dependent upon GSA’s acquisition of the hardware security module and the card
management system. When these elements become available, SSA will be able to
implement the infrastructure needed to support the use of a compliant HSPD-12
credential nationwide.

SSA should obtain GSA certification for the credential it plans to use to meet HSPD-12
technical operability requirements and when available, implement the infrastructure
needed to support the use of Part 2 compliant credentials.




14
  FIPS 201-1, supra, Part 2: PIV-II, provides detailed information as to the technical functional
requirements that the PIV II credential needs to meet (see Sections 4.1 through 4.5.3, pages 15-37).
15
     OMB, supra, § 4, p. 6.
16
     OMB Memorandum M-07-06, § 1.
Page 6 – The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
SSA had implemented a number of important OMB and FIPS PUB 201-1 requirements
for HSPD-12 as of October 27, 2006. For example, SSA created and used an HSPD-12
identity proofing, registration and issuance process for new Agency employees at its HQ
complex; issued 13 PIV II credentials before the OMB mandated target date; formulated
and executed a plan to help ensure SSA employees have an appropriate background
investigation initiated or on file; and filed the required notices and took appropriate
actions needed to address HSPD-12 privacy and security requirements involving the
protection of Personally Identifiable Information in the development of a new system of
records.

However, SSA still needs to: implement an HSPD-12 identity proofing, registration, and
issuance process nationwide and use it to process new SSA employees and contractor
personnel; issue a credential that has been certified by NIST as having met Part 2 PIV II
credential technical requirements and implement the infrastructure needed to support
the use of a compliant credential.

We recommend SSA:

1. Implement the HSPD-12 identity proofing, registration and issuance process
   nationwide for all new SSA employees and contractor personnel.

2. Ensure contract language is HSPD-12 compliant where appropriate.

3. Issue credentials certified by GSA as having met Part 2 PIV II credential technical
   requirements.

4. When available, implement the necessary infrastructure that will support and control
   the use of a compliant credential.

AGENCY COMMENTS
SSA agreed to implement our recommendations. The Agency added that it could
not comply with our recommendations in the past due to conditions outlined in the full
text of its comments shown in Appendix E. However, SSA plans to implement each of
the OIG recommendations in the future.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
E-GOV      Electronic Government
FBI        Federal Bureau of Investigation
FIPS PUB   Federal Information Processing Standards Publication
GSA        General Services Administration
HQ         Headquarters
HSPD       Homeland Security Presidential Directive
NACI       National Agency Check with Written Inquiries
NIST       National Institute of Standards and Technology
OMB        Office of Management and Budget
PIA        Privacy Impact Assessment
PIV        Personal Identity Verification
SSA        Social Security Administration
                                                                       Appendix B

Background
On August 27, 2004, the President of the United States signed Homeland Security
Presidential Directive (HSPD) 12, Policy for a Common Identification Standard for
Federal Employees and Contractors (the Directive). HSPD-12 directed the
promulgation of a mandatory Federal Government-wide standard for secure and reliable
forms of identification for Federal employees and contractors (including contractor
employees).

To aid in the implementation of HSPD-12, the National Institute of Standards and
Technology (NIST) issued Federal Information Processing Standard (FIPS) Publication
(PUB) 201-1, Personal Identity Verification (PIV) of Federal Employees and
Contractors. FIPS PUB 201-1 provides guidance that executive departments and
agencies are to use to implement HSPD-12.

FIPS PUB 201-1 contains 2 parts. Part 1 addresses control and security objectives of
the Directive that have a mandated implementation date of October 27, 2005. Part 1
requires the adoption and accreditation of personal identity proofing, registration, and
issuance and maintenance process for new employees and contractor personnel.
Part 2 addresses the technical components and processes that support a common
smart card-based platform for identity authentication across Federal Departments and
agencies for access to federally controlled physical and logical environments.
Implementation of Part 2 requirements is mandated as of October 27, 2006.

The Office of Management and Budget (OMB) issued Memorandum M-05-24 on
August 5, 2005. M-05-24 provides implementing instructions and timelines for
additional actions that Federal Departments and agencies should complete for the
Directive. For example, the Social Security Administration (SSA) is required to comply
with the implementation timeframes set forth below:

                 AGENCY REQUIRED MILESTONES AND ACTIONS
          Date                                   Agency Action
6/27/05                 Implementation plans submitted to OMB
8/26/05                 Provide list of other potential uses of the Standard
10/27/05                Comply with FIPS PUB 201, Part 1
10/27/06                Begin compliance with FIPS PUB 201-1, Part 2
10/27/07                Verify and/or complete background investigations for all current
                        employees and contractor personnel
10/27/08                Complete new background investigations, commensurate with
                        risk, for all Federal agency employees who have over 15 years
                        service time

                                         B-1
CONTROL OBJECTIVES OF HSPD-12

For purposes of HSPD-12, “…secure and reliable forms of identification…” for Federal
employees and contractors means identification that (a) is issued based on sound
criteria for verifying an individual employee’s identity; (b) is strongly resistant to identity
fraud, tampering, counterfeiting and terrorist exploitation; (c) can be rapidly
authenticated electronically; and (d) is issued only by providers whose reliability has
been established by an official accreditation process. 1

Each agency’s PIV-I implementation shall meet the above referenced four HSPD-12
control objectives by ensuring that credentials are issued 1) to individuals whose true
identity has been verified and 2) after a proper authority has authorized issuance of the
credential. Further, 3) only an individual with a background investigation on record is
issued a credential; 4) an individual is issued a credential only after presenting two
identity source documents, at least one of which is a valid Federal or State government
issued picture ID; 5) fraudulent identity source documents are not accepted as genuine 2
and unaltered; 6) a person suspected or known to the government as being a terrorist is
not issued a credential; 7) no substitution occurs in the identity proofing process. More
specifically, the individual who appears for identity proofing, and whose fingerprints are
checked against databases, is the person to whom the credential is issued; 8) no
credential is issued unless requested by proper authority; 9) a credential remains
serviceable only up to its expiration date and that a revocation process exists such that
expired or invalidated credentials are swiftly revoked; 10) a single corrupt official in the
process may not issue a credential with an incorrect identity or to a person not entitled
to the credential; and 11) an issued credential is not modified, duplicated, or forged. 3

PIV IDENTITY PROOFING AND REGISTRATION REQUIREMENTS

Departments and agencies are required to follow an identity proofing and registration
process that meets the following requirements when issuing identity credentials: 4

      •   The organization shall adopt and use an approved identity proofing and
          registration process.
      •   The process shall begin with initiation of a National Agency Check with Written
          Inquiries (NACI), or other Office of Personnel Management or National Security
          community investigation required for Federal employment. This requirement may
          also be satisfied by locating and referencing a completed and successfully




1
    Homeland Security Presidential Directive/HSPD-12, § (3), August 27, 2004.
2
  FIPS, supra, § 2.2 requires the adoption and use of an approved HSPD-12 identity proofing and
registration process, in order to satisfy PIV 1 control objectives.
3
    FIPS, supra, § 2.1, page 5.
4
    FIPS, supra, § 2.2, pages 5-6.
                                                  B-2
          adjudicated NACI. At a minimum, the Federal Bureau of Investigation (FBI)
          National Criminal History Check (fingerprint check) shall be completed before
          credential issuance. 5
      •   The applicant must appear in-person at least once before the issuance of a PIV
          credential.
      •   During identity proofing, the applicant shall be required to provide two forms of
          identity source documents in original form. The identity source documents must
          come from the list of acceptable documents included in Form I-9, OMB No. 1115-
          0136, Employer Eligibility Verification. At least one document shall be a valid
          State or Federal government-issued picture identification (ID).
      •   The PIV identity proofing, registration and issuance process shall adhere to the
          principal of separation of duties to ensure that no single individual has the
          capability to issue a PIV credential without the cooperation of another authorized
          person.

PIV PRIVACY REQUIREMENTS

To ensure the privacy of applicants, departments and agencies shall: 6

      •   Assign a senior agency official for privacy. The senior agency official for privacy
          is the individual who oversees privacy-related matters in the PIV system and is
          responsible for implementing the privacy requirements in the standard. The
          person serving in this role cannot assume any other operational role in the PIV
          system.
      •   Conduct a comprehensive Privacy Impact Assessment (PIA) on systems
          containing personal information in identifiable form for the purpose of
          implementing PIV, consistent with the E-Government Act of 2002 7 and OMB
          Memorandum M-03-22. Consult with appropriate personnel responsible for
          privacy issues at the department or agency (e.g., Chief Information Officer)
          implementing the PIV system.
      •   Write, publish, and maintain a clear and comprehensive document listing the
          types of information that will be collected, the purpose of the collection, what
          information may be disclosed to whom during the life of the credential, how the
          information will be protected, and the complete set of uses of the credential and
          related information at the department or agency. PIV applicants shall be
          provided full disclosure of the intended uses of the PIV and the related privacy
          implications.




5
  OMB Memorandum M-05-24 footnote 6, on page 5, indicates that section 2.2 of the Standard has been
revised to clarify for the initial credential issuance, that only the fingerprint check must be completed.
6
    FIPS, supra, § 2.4, p. 7-8.
7
    Pub. L. 107-347, 116 Stat. 2899.
                                                 B-3
      •   Assure that systems that contain Information in Identifiable Form for the purpose
          of enabling the implementation of PIV are handled in full compliance with fair
          information practices as defined in the Privacy Act of 1974. 8
      •   Maintain appeals procedures for those who are denied a credential or whose
          credentials are revoked.
      •   Ensure that only personnel with a legitimate need for access to Information in
          Identifiable Form in the PIV system are authorized to access the Information in
          Identifiable Form including but not limited to information and databases
          maintained for registration and credential issuance.
      •   Coordinate with appropriate department or agency officials to define
          consequences for violating privacy policies of the PIV system.
      •   Assure that the technologies used in the department or agency’s implementation
          of the PIV system allow for continuous auditing of compliance with stated privacy
          policies and practices governing the collection, use, and distribution of
          information in the operation of the program.
      •   Utilize security controls described in NIST Special Publication 800-53,
          Recommended Security Controls for Federal Information Systems, to accomplish
          privacy goals, where applicable.
      •   Ensure that the technologies used to implement PIV sustain and do not erode
          privacy protections relating to the use, collection, and disclosure of information in
          identifiable form. Specifically, employ an electromagnetically opaque sleeve or
          other technology to protect against any unauthorized contactless access to
          information stored on a PIV credential.




8
    5 U.S.C. § 552a, as amended.
                                             B-4
                                                                    Appendix C

Scope and Methodology
To determine the progress that the Social Security Administration (SSA) has made in
implementing Homeland Security Presidential Directive (HSPD) 12 as of
October 27, 2006, we:

   •   Reviewed applicable laws, regulations and guidance pertaining to HSPD-12.

   •   Reviewed Agency policies and procedures that were used in implementing
       HSPD-12 requirements.

   •   Interviewed appropriate SSA personnel and examined relevant documentation.

   •   Observed the HSPD-12 credentialing process at the Headquarters’ complex.

   •   Conducted a random sample of SSA new hires in the Baltimore metropolitan
       area during the period of October 27, 2005 through October 26, 2006.

   •   Discussed our preliminary results with Agency management responsible for the
       implementation of HSPD-12.

To meet our objective, we interviewed management and key staff within the SSA Office
of Protective Security Services, and Office of Personnel components located at the
Office of Central Operations, the Office of Disability Adjudication and Review, and SSA
Headquarters’ complex. We also observed the process used by the SSA Headquarters’
complex Parking and Badging Office to issue badges to Headquarters new hires during
the period of October 27, 2005 to October 26, 2006. Our field work was performed from
October 2006 through February 2007. This audit was performed in accordance with
generally accepted government auditing standards. The review period was
October 27, 2005 through October 26, 2006.
                                                                                 Appendix D

Sampling Methodology and Results
We selected a random statistical sample of SSA personnel who were hired in the
Baltimore metropolitan area during the period of October 27, 2005 through
October 26, 2006. We randomly selected 50 individuals from a population of
698 individuals hired during that time. Our objective was to determine if the SSA
identity proofing, registration and issuance process in place met HSPD-12
requirements.

An approved SSA HSPD-12 identity proofing, registration, and issuance process was in
place for 21 1 of the 50 individuals sampled. For the remaining 28 individuals, an SSA
HSPD-12 identity proofing, registration, and issuance process was not implemented
Agency-wide. Through our sample results and interviews with SSA managers, we
determined SSA had implemented an HSPD-12 process for 21 individuals who were
hired for Headquarters positions. The results are presented in the following table.

                           Applicant     FBI            Background        Two Forms       PIV
Location           Total   Appeared      Fingerprint    Investigation     of OMB I-9      Request
                           In-person     Check          Completed,        Documents       Checklist
                           Before        Completed      Scheduled,        Obtained        Completed
                           Badge                        not Needed,
                           Issued                       or in
                                                        Process

                                          Headquarters
                    22          19          21          21                     19              19
                                        Non-Headquarters
Office of           21          21          21          20                     19              0
Central
Operations
Office of            6          6              6               6                5              0
Disability
Adjudication
and Review
National             1          1              1               1                1              0
Computer
Center
Total               50          47            49              48               44              19




1
 One individual hired at the SSA Headquarters complex was a member of the SSA Board of Trustees.
As such, this individual would have no need to access SSA controlled facilities or system resources.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM

Date:      July 6, 2007                                                          Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster (David A. Rust /s/ for)
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Progress in Implementing Homeland Security Presidential Directive-12”
           (A-14-07-27110)--INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SOCIAL SECURITY ADMINISTRATION'S PROGRESS IN IMPLEMENTING
HOMELAND SECURITY PRESIDENTIAL DIRECTIVE-12”
(A-14-07-27110)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this audit of the Social Security Administration’s (SSA) progress in implementing
Homeland Security Presidential Directive (HSPD)-12 for the period October 27, 2005 through
October 2006.

Recommendation 1

SSA should implement the HSPD-12 identity proofing, registration and issuance process
nationwide for all new SSA employees and contractor personnel.

Comment

We partially agree with this recommendation for the study period. On December 15, 2005, the
Office of Management and Budget (OMB) accepted SSA's HSPD-12 implementation plan
template, which specified that the Agency would implement an HSPD-12 compliant personal
identity verification system in phases, beginning with Headquarters employees and contractors.
SSA is implementing that plan and has also begun the process to include employees who work in
a field office (FO) facility where a badge is currently required.

Also, we began partially processing Agency new hires across the country under the Federal
Information Processing Standards (FIPS) 201 guidelines. Specifically, we began conducting the
Federal Bureau of Investigation (FBI) Criminal History Check (fingerprint check) before the new
hires entered on duty (EOD) starting October, 2005, rather than after their EOD date.
Previously, the FBI fingerprint check was not conducted until after the new hires EOD, which
resulted in new hires being found to be unsuitable after EOD. The various regional servicing
personnel offices also performed other checks based on guidance from SSA's Office of
Personnel. Thus, SSA did take advantage of the new HSPD-12 process to screen new hires
before bringing them on board. This part of our hiring process meets the directive.

We did not issue the building access badges according to the FIPS 201 separation-of-duties
process in regional locations where such access badges are used. We did not attempt this,
because we lacked the resources to train the regions and large sites on the process and to
properly oversee implementation. It should be noted that most SSA FO employees do not
receive building access badges. These badges are primarily issued in the larger SSA sites (e.g.,
regional offices, Program Service Centers, large Teleservice Centers and the Wilkes-Barre Data
Operation Center). Since the vast majority of FO employees do not have badges, that part of
FIPS 201 and OMB guidance did not apply to them for the study period.

October 2008 is our deadline for meeting this objective. We expect this deadline to be met.




                                               E-2
Recommendation 2

SSA should ensure contract language is HSPD-12 compliant where appropriate.

Comment

We partially agree with this recommendation. During the study period, SSA did perform
background checks on contractors, something not generally required for contractors prior to the
signing of HSPD-12. We have performed such checks for about 20 years, putting us far ahead of
most Federal agencies. SSA's Office of Acquisition and Grants already includes Federal
Acquisition Regulation (FAR) 52.204-9, Personal Identity Verification of Contractor Personnel,
in all applicable new contracts. During the study period, the General Services Administration
(GSA) had not included language in the FAR to implement the requirements of HSPD-12. That
FAR clause was not issued until after the study period. The Agency is working to revise the
Security Requirements Clause to reflect that the new FAR language is in existing contracts.

Recommendation 3

SSA should issue credentials certified by GSA as having met Part 2 Personal Identity
Verification (PIV) II credential technical requirements.

Comment

We agree with the recommendation, but we disagree with the rationale for making it based on
the study period. We believe the problem with the initial testing of our credential was due to a
flawed GSA testing process and not due to our card. The card we procured, and all the programs
needed to issue the credentials stored in the card, came from the GSA Approved Products List.
Thus, the cards should have worked as designed. We have resubmitted our credentials to GSA
and expect that they will meet Part 2 PIV II technical requirements.

Recommendation 4

When available, implement the necessary infrastructure that will support and control the use of a
compliant credential.

Comment

We agree. We have pilots underway and are actively pursuing the implementation of the
required infrastructure. This process is expected to take at least 5 years and over
$30 million to complete.



[In addition to the comments above, SSA provided technical comments which have
been addressed in this report.]



                                               E-3
                                                                      Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
Kitt Winter, Director, Data Analysis and Technology Audit Division, (410) 965-9702

Al Darago, Audit Manager, Application Controls, (410) 965-9710

Acknowledgments

In addition to those named above:

   Harold Hunter, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-07-27110
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
